<html>
<title> - U.S. FIRE ADMINISTRATION AND FIRE GRANT PROGRAMS REAUTHORIZATION: EXAMINING EFFECTIVENESS AND PRIORITIES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





                      U.S. FIRE ADMINISTRATION AND
                  FIRE GRANT PROGRAMS REAUTHORIZATION:
                 EXAMINING EFFECTIVENESS AND PRIORITIES

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON RESEARCH AND TECHNOLOGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 12, 2017

                               __________

                           Serial No. 115-21

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





       Available via the World Wide Web: http://science.house.gov




                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

26-238PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001























              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  AMI BERA, California
THOMAS MASSIE, Kentucky              ELIZABETH H. ESTY, Connecticut
JIM BRIDENSTINE, Oklahoma            MARC A. VEASEY, Texas
RANDY K. WEBER, Texas                DONALD S. BEYER, JR., Virginia
STEPHEN KNIGHT, California           JACKY ROSEN, Nevada
BRIAN BABIN, Texas                   JERRY MCNERNEY, California
BARBARA COMSTOCK, Virginia           ED PERLMUTTER, Colorado
BARRY LOUDERMILK, Georgia            PAUL TONKO, New York
RALPH LEE ABRAHAM, Louisiana         BILL FOSTER, Illinois
DRAIN LaHOOD, Illinois               MARK TAKANO, California
DANIEL WEBSTER, Florida              COLLEEN HANABUSA, Hawaii
JIM BANKS, Indiana                   CHARLIE CRIST, Florida
ANDY BIGGS, Arizona
ROGER W. MARSHALL, Kansas
NEAL P. DUNN, Florida
CLAY HIGGINS, Louisiana
RALPH NORMAN, South Carolina
                                 ------                                

                Subcommittee on Research and Technology

                 HON. BARBARA COMSTOCK, Virginia, Chair
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             ELIZABETH H. ESTY, Connecticut
STEPHEN KNIGHT, California           JACKY ROSEN, Nevada
DARIN LaHOOD, Illinois               SUZANNE BONAMICI, Oregon
RALPH LEE ABRAHAM, Louisiana         AMI BERA, California
DANIEL WEBSTER, Florida              DONALD S. BEYER, JR., Virginia
JIM BANKS, Indiana                   EDDIE BERNICE JOHNSON, Texas
ROGER W. MARSHALL, Kansas
LAMAR S. SMITH, Texas


















                            C O N T E N T S

                             July 12, 2017

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Barbara Comstock, Chairwoman, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     4
    Written Statement............................................     6

Statement by Representative Daniel Lipinski, Ranking Member, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     8
    Written Statement............................................    10

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    12
    Written Statement............................................    14

                               Witnesses

Dr. Denis Onieal, Acting Administrator, United States Fire 
  Administration
    Oral Statement...............................................    17
    Written Statement............................................    20

Chief John Sinclair, President and Chair of the Board, 
  International Association of Fire Chiefs; Fire Chief, Kittitas 
  Valley Fire and Rescue (WA)
    Oral Statement...............................................    30
    Written Statement............................................    32

Captain John Niemiec, President, Fairfax County (VA) Professional 
  Fire Fighters and Paramedics-International Association of Fire 
  Fighters Local 2068
    Oral Statement...............................................    40
    Written Statement............................................    42

Mr. Steve Hirsch, First Vice Chair, National Volunteer Fire 
  Council; Training Officer, Sheridan County Fire District #1, 
  Thomas County Fire District #4, and Grinnell Fire Department 
  (KS)
    Oral Statement...............................................    51
    Written Statement............................................    53

Dr. Gavin Horn, Research Program Director, Illinois Fire Service 
  Institute
    Oral Statement...............................................    66
    Written Statement............................................    69

Chief H. ``Butch'' Browning, Jr., President, National Association 
  of State Fire Marshals, Louisiana State Fire Marshal
    Oral Statement...............................................    84
    Written Statement............................................    86

Discussion.......................................................    95

             Appendix I: Answers to Post-Hearing Questions

Dr. Denis Onieal, Acting Administrator, United States Fire 
  Administration.................................................   110

            Appendix II: Additional Material for the Record

Letters submitted by Representative Barbara Comstock, Chairwoman, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........   114

Letter submitted by Representative Daniel Lipinski, Ranking 
  Member, Subcommittee on Research and Technology, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   124
 
                        U.S. FIRE ADMINISTRATION
                AND FIRE GRANT PROGRAMS REAUTHORIZATION:
                 EXAMINING EFFECTIVENESS AND PRIORITIES

                              ----------                              


                        WEDNESDAY, JULY 12, 2017

                  House of Representatives,
           Subcommittee on Research and Technology,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:07 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Barbara 
Comstock [Chairwoman of the Subcommittee] presiding.
[GRAPHIC] [TIFF OMITTED] T6238.001

[GRAPHIC] [TIFF OMITTED] T6238.002

    Chairwoman Comstock. The Committee on Science, Space, and 
Technology will come to order.
    Without objection, the Chair is authorized to declare 
recesses of the Committee at any time.
    Good morning, and welcome to today's hearing titled ''U.S. 
Fire Administration and Fire Grant Programs Reauthorization: 
Examining Effectiveness and Priorities.'' I now recognize 
myself for five minutes for an opening statement.
    The purpose of today's hearing is to review the United 
States Fire Administration and the Assistance to Firefighters 
(FIRE) and Staffing for Adequate Fire and Emergency Response 
(SAFER) grant programs. The hearing will help inform 
legislation to address current program authorizations that 
expire on September 30, 2017.
    Fire prevention and safety is literally a matter of life 
and death. In 2015 there were 1.34 million fires reported in 
the United States, causing over 3,000 civilian deaths and over 
15,000 injuries. In addition to this devastating human loss, 
fires caused $14.3 billion in property damage.
    As I travel throughout my district and visit with my 
firefighters and paramedics and first responders, I am 
constantly reminded of the sacrifices that these brave men and 
women make on a daily basis to protect their fellow citizens in 
our community. Last year, sadly, 69 of those brave men and 
women across the country lost their lives in the line of duty.
    Fire prevention has improved dramatically in the last 40 
years since Congress passed the Federal Fire Prevention and 
Control Act in 1974, which created the U.S. Fire Administration 
and the National Fire Academy, but these numbers are still too 
high.
    USFA and NFA are tasked with data collection, public 
education, as well as research and training efforts, to help to 
reduce fire deaths and make our communities and residents 
safer.
    We will hear from the Acting Administrator of the U.S. Fire 
Administration today about how the agency works to fulfill its 
mission and learn how we can enhance its efforts to improve 
fire safety in the United States.
    Firefighting activities and funding are primarily the 
responsibility of states and local communities. However, for 
the last 15 years the Federal Government has awarded 
competitive federal grants directly to local fire departments 
and unaffiliated emergency medical services organizations to 
help address a variety of equipment, training, and other 
firefighter-related and EMS needs, and oftentimes those are 
dealing with new technologies too that we want to make sure you 
have the best and the latest.
    FIRE Act awards provide funding for equipment and training 
to ensure the safety of our nation's first responders. SAFER 
Act awards help departments address hiring, recruiting and 
retaining firefighters to help maintain and increase the number 
of trained firefighters in local communities.
    I know that many professional and volunteer departments in 
my district rely on these grants so they can continue to 
provide high-quality fire and emergency services both to their 
communities, and I know in the instance of my community, they 
often are helping people throughout the country as well as 
internationally acclaimed.
    So a fine member of one of those departments is here today 
with us, Captain John Niemiec, from the Fairfax County Fire and 
Rescue Department. I look forward to hearing his testimony on 
the needs of the firefighters in his department and around the 
country.
    We have a panel representing state and local fire 
departments and organizations from around the country: 
Washington State, Kansas, Louisiana and Illinois. All have 
different needs, and I look forward to their input on how we 
can improve the fire safety in all communities and support our 
nation's first responders.
    Last month the horrific Grenfell Tower fire in London that 
killed over 80 people reminded us we cannot take fire safety 
for granted. Closer to home, it was just two years ago that a 
Metro fire injured 70 and killed a Virginia resident who was a 
grandmother of three. In each case, first responders ran 
towards the flames and prevented additional lives from being 
lost.
    I look forward to working with my colleagues on both sides 
of the aisle to move this timely legislation to ensure our 
nation's firefighters and paramedics have the tools they need 
to fight and prevent fire.
    And with that, I look forward to hearing the testimonies of 
our witnesses.
    [The prepared statement of Chairwoman Comstock follows:]
    [GRAPHIC] [TIFF OMITTED] T6238.003
    
    [GRAPHIC] [TIFF OMITTED] T6238.004
    
    Chairwoman Comstock. And I now recognize the Ranking 
Member, the gentleman from Illinois, Mr. Lipinski, for his 
opening statement.
    Mr. Lipinski. I thank you, Chairwoman Comstock.
    The authorizations of the U.S. Fire Administration 
Assistance to Firefighters Grant, or AFG, program as well as 
the Staffing for Adequate Fire and Emergency Response, or SAFER 
grant program, expire in just 2 months. Without Congressional 
action, both programs will terminate on January 2, 2018, under 
sunset provisions included in the last reauthorization. I hope 
this Committee will work to get a bill to the President's desk 
before that time to reauthorize these programs.
    I thank our distinguished panelists for being here today 
and for their service in keeping the American public safe from 
fire and from other hazardous threats.
    In the early 1990s, fires claimed 12,000 Americans lives 
per year and caused $11 billion in damage, making the U.S. the 
leader of all major industrialized countries in per capita 
deaths and property loss from fire. A 1973 report by the 
National Commission on Fire Prevention and Control, titled 
America Burning, recommended the establishment of the U.S. Fire 
Administration and the National Fire Academy.
    Thanks in large part to the efforts of those institutions 
and all of our first responders, the Nation is making progress 
in lowering fire fatalities. Today's rate of just over 3,000 
civilian fire deaths per year is significantly lower than in 
the 1970s, but it is still one of the highest in the 
industrialized world. Unfortunately, it will be difficult to 
reduce fire fatalities and property loss without adequate 
funding of the Fire Administration and fire grant programs. 
While appropriated funding levels have remained somewhat flat 
for the last few years, these levels are well below program 
authorizations. Critical areas such as firefighter safety, fire 
protection, and fire data collection and analysis, all of which 
assist fire service professionals in the field and help keep 
communities safe, are underfunded.
    Career, volunteer, and combination fire departments all 
face challenges in meeting their day-today needs. Local fire 
departments are the boots on the ground for fire prevention and 
protection, but when state budgets do not allow for adequate 
funding to hire firefighters and ensure proper training and 
access to life-saving protective gear and equipment, there is a 
federal role in providing funding and technical assistance. The 
Fire Grants Reauthorization Act of 2012 made significant 
changes to the fire grant programs to address some of these 
funding and technical obstacles. Changes included the 
distribution of AFG fire funding among the various types of 
fire departments, reducing the cost share requirement for 
smaller departments, and waiving the matching requirements for 
less affluent communities.
    Whether in a booming local economy or a struggling one, 
many of today's fire departments do more than fight fire. They 
respond to medical calls, hazardous materials calls, and calls 
about other hazardous situations, such as an active shooter. It 
is critical that the more than one million firefighters across 
the Nation have access to proper training to protect the public 
and themselves while doing a very tough job. The National Fire 
Academy curriculum reflects current firefighter duties to help 
fire and emergency professionals prepare for all-hazards 
responses. Achieving successful outcomes in all-hazards 
responses often requires the use of advanced firefighting 
technologies. Federal agencies including the Department of 
Homeland Security, the National Institute of Standards and 
Technology, and the National Science Foundation along with the 
university research community, are investing in fire-related 
research, including first responder protective equipment, 
health and safety monitoring of emergency responders, and smart 
information and communications technologies for real-time 
situational awareness. I look forward to Dr. Horn's testimony 
on how these technologies help firefighters and what research 
needs and capability gaps require further investment.
    I look forward to hearing from our panel--I look forward to 
hearing our panel discuss the effects of these changes and 
others to the fire service community, and what the Committee 
should consider as we look at reauthorizing these programs. 
Thank you for taking the time to appear before us today.
    Chairwoman Comstock, before I yield back, I ask--I want to 
ask unanimous consent to introduce into the record a letter 
from the Property Casualty Insurance Association of America in 
support of the SAFER grants program.
    Chairwoman Comstock. Without objection.
    [The information appears in Appendix II]
    Mr. Lipinski. Thank you, Madam Chairwoman, and in the last 
few seconds, I just want to say I was just in my district on 
Monday at the Lagrange Fire Department, and they just have been 
awarded a grant and they're telling me about how important that 
these grants are for assuring community safety, and again, I 
want to thank everyone who is here today, and thank you for 
your service to our country and all of our communities.
    I yield back.
    [The prepared statement of Mr. Lipinski follows:]
    [GRAPHIC] [TIFF OMITTED] T6238.005
    
    [GRAPHIC] [TIFF OMITTED] T6238.006
    
    Chairwoman Comstock. Thank you, and I now recognize the 
Ranking Member of the full Committee for a statement, Ms. 
Johnson.
    Ms. Johnson. Thank you very much, Chairwoman Comstock. 
Thank you for holding this hearing today.
    As the Committee considers reauthorization, it is helpful 
to exam the effectiveness and priorities of the U.S. Fire 
Administration, the Assistance to Firefighters Grant Program, 
and the Staffing for Adequate Fire and Emergency Response Grant 
program. I want to welcome all of our witnesses, and I 
appreciate them being here to share insights today.
    I'm pleased to announce earlier this year that the City of 
Duncanville, in my district, received a grant. As with other 
grant recipients, the award will help the Duncanville Fire 
Department in its efforts to protect the health and safety of 
the public and emergency response personnel.
    The availability of these funds is critical to many 
communities. Local fire departments respond to a myriad of 
hazards, from structural fires and automobile accidents, to 
wildfires, other natural disasters, and even terrorist attacks.
    Faring better than many other programs, the U.S. Fire 
Administration and the fire grants programs would remain flat 
funded under this Administration's fiscal year 2018 budget 
proposal. However, that budget request and the recent 
appropriations for these programs have fallen well below the 
authorized levels. In addition to providing fewer resources for 
training, purchasing life-saving equipment, and hiring enough 
firefighters to respond safely to emergencies, under-funding 
also affects Congress's ability to conduct oversight of these 
programs. When the agencies do not have proper funding to carry 
out the required studies and reports, we lack the data and 
feedback on the effectiveness of the programs. So I urge this 
Committee to continue to support authorization levels that 
acknowledge the significant demand for these important 
programs.
    This hearing is also an opportunity for us to review 
changes made to the programs since the last authorization. In 
2016, GAO reported that FEMA has incorporated a majority of the 
changes Congress required in 2012. However, GAO also 
recommended greater coordination between the Fire 
Administration and FEMA, as well as the establishment of 
clearer performance metrics for the grant programs.
    The agencies still have work to do to meet those 
recommendations. Coordination and collaboration among relevant 
agencies is key. For example, while wildfires are handled by 
the U.S. Forest Service, wildfires often approach and even hit 
populated areas. I am interested in hearing more about 
collaboration between federal agencies, state, tribal, and 
local jurisdictions in addressing wildland-urban interface 
fires.
    Finally, the fire service community relies on advances in 
fire-related scientific research and technological innovation, 
including communications technologies, protective gear and 
equipment, and firefighting tactics. I hope that Dr. Onieal and 
Dr. Horn, you will provide us with an update on fire-related 
research needs and any technology gaps that need addressing, as 
well as federal agency collaborations and university 
partnerships. The U.S. Fire Administration and the fire grants 
program provide critical resources to address the nation's 
emergency response challenges, and I look forward to hearing 
from the witnesses how Congress can ensure they have the 
support they need to assist the departments effectively across 
the nation. It is an important role that you play, and I hope 
to hear from you today.
    Thank you, and I yield back.
    [The prepared statement of Ms. Johnson follows:]
    [GRAPHIC] [TIFF OMITTED] T6238.007
    
    [GRAPHIC] [TIFF OMITTED] T6238.008
    
    Chairwoman Comstock. We will introduce our witnesses. Our 
first today is Dr. Denis Onieal, Acting Administrator of the 
U.S. Fire Administration. He joined the Jersey City Fire 
Department in 1971 and rose through the ranks from firefighter 
to deputy chief, then acting chief in 1995, leading a uniformed 
force of 625 firefighter and officers. He was appointed 
Superintendent of the National Fire Academy in 1995. He holds a 
bachelor of science degree from New Jersey University, a 
master's degree in public administration from Fairleigh 
Dickinson University, and a doctor of education degree from 
NYU. He taught in the master and doctorate programs in 
education at NYU for five years, and has written numerous 
articles in the fire field.
    Our second witness today is Chief John Sinclair, President 
and Chair of the Board for the International Association of 
Fire Chiefs. He also serves as Fire Chief of the Kittitas 
Valley Fire and Rescue in Washington State. Prior to this 
position, Chief Sinclair served on the emergency medical 
services section where he was involved with major issues facing 
fire-based EMS. He currently represents the fire service on the 
National EMS Advisory Council. He has also worked with the 
American College of Surgeons Hartford Consensus I and II, as 
well as assisted with the Department of Homeland Security and 
Centers for Disease Control with their Bystander Response 
Project.
    Our third witness today is Captain John Niemiec, President 
of the Fairfax County, Virginia, Professional Fire Fighters and 
Paramedics, International Association of Fire Fighters. He is a 
22-year veteran of the Fairfax County Fire and Rescue 
Department. He also serves as an Executive Board Member of the 
National Conference on Public Employee Retirement Systems, the 
largest trade association dedicated to nonprofit public pension 
advocating. He earned his bachelor's degree in occupational 
safety and health from the National Labor College as well as a 
certificate of completion from the George Washington 
University's EMT/paramedic program.
    I now recognize Dr. Marshall to introduce our next witness.
    Mr. Marshall. Thank you, Chairwoman Comstock. I'm very 
honored to introduce our fourth witness today, Mr. Steve 
Hirsch. Steve is the first Chair of the National Volunteer Fire 
Council and a resident of the largest agriculture producing 
district in the country, the 1st District of Kansas. Steve 
served as the Training Officer for Sheridan County, Thomas 
County, and the Grinnell Fire Department of Kansas, and that's 
about 2,000 square miles as I remember having just been out 
there this past week doing some town halls. These are all 100 
percent volunteer fire departments. Mr. Hirsch served as the 
Secretary of the Kansas State Firefighters Association since 
2000 and also serves as the Country Attorney for Decatur 
County. He's a graduate of the one of the finest institutions 
in the land, Kansas State University, as well as Washburn Law 
School. I want to recognize his wife Anita, who's in the 
audience as well, and I'm very proud that I've delivered a 
couple of Anita's--I think they were both boys, weren't they 
nephews, or is it one of each? One of each. Okay. So it's been 
20 years ago, but there was one of each, so very proud that 
she's here and certainly understand what a sacrifice it is to 
let your husband go play these games. He's got to do all these 
weekend chores. My dad was in charge of the fire department in 
my hometown, and I trained many weekends with him training 
volunteers as well, and I hate to admit this, Steve, but I had 
to call on some of your friends' help one hot summer afternoon 
when I had a little prairie fire get out of control, and they 
sure saved my bacon, so I appreciate what you do, and of 
course, we just had 650,000 acres of wildfire in Kansas that 
destroyed over 5,000 head of cattle. So certainly saved 
hundreds from that fire and appreciate all that you guys do for 
us. Thanks.
    Chairwoman Comstock. Great. Now, our fifth witness today is 
Dr. Gavin Horn, Research Program Director for the Illinois Fire 
Service Institute. His research interests lie in the areas of 
firefighter health and safety research, first responder 
technology development, material testing and design, and non-
destructive evaluation. He is a member of the Board of Trustees 
for the Fire Protection Research Foundation and currently 
serves as a Firefighter and Engineer with the Savoy Fire 
Department in Illinois. He received his Ph.D. in mechanical 
engineering from the University of Illinois at Urbana-
Champaign.
    Our sixth witness today is Chief Butch Browning, President 
of the National Association of State Fire Marshals as well as 
the Louisiana State Fire Marshal. Over the past seven years, he 
has led the reorganization of the State Fire Marshal's Office 
to include cross training of personnel and the development of a 
modern data management system. Over the past 29 years, he has 
served at all levels of the fire service. He entered public 
service as a Sheriff's Deputy for East Baton Rouge Parish and 
later served as Fire Chief for the District 6 Fire Department 
in Baton Rouge and for the City of Gonzalez. He is a graduate 
of the National Fire Academy's Executive Fire Office program 
and is a nationally registered emergency medical technician.
    I now recognize Dr. Onieal for five minutes to present his 
testimony.

                 TESTIMONY OF DR. DENIS ONIEAL,

                     ACTING ADMINISTRATOR,

               UNITED STATES FIRE ADMINISTRATION

    Dr. Onieal. Good morning, Madam Chair and Members of the 
Committee. My name is Dennis Onieal. I serve as the Acting 
United States Fire Administrator, responsible for managing the 
USFA, our programs, training and facilities at the National 
Emergency Training Center, and I'm pleased to talk to you this 
morning about the USFA.
    In a sentence, the USFA works to prevent local emergencies 
from becoming natural disasters, and to the extent that a 
community has a well-trained, well-led cadre of responders, 
that emergency stays local. Poorly handled or so large the 
local forces are overwhelmed, local emergencies become 
disasters, triggering state and federal response, assets and 
costs.
    Sometimes the emergency is of such initial magnitude that 
the local responders are overwhelmed, and when that happens, 
it's important that the local forces integrate with state and 
local agencies under the National Incident Management System. 
Poorly prepared local forces won't integrate well, resulting in 
increased loss of life and property, increased costs, and often 
criticism of federal response.
    The USFA supports the DHS and FEMA missions in four ways. 
We train mid- to senior-level fire officers and specialists; we 
collect and analyze incident data and provide information about 
the 25 million fire department responses a year; we develop and 
distribute fire prevention and public education programs; and 
we assist in research.
    There are several disturbing factors that I see affecting 
our nation and citizens over the next few decades. First, as 
you all pointed out, Americans are dying in fires, a little 
over 3,000 a year, and we work closely with all affected 
governments and groups to encourage the installation of 
sprinklers and smoke alarms, conduct inspections, and practice 
drills. But the methods and materials of construction are 
changing rapidly. Today's modern fire home is a perfect storm 
of conditions and outcomes--larger floor areas, increased fuel 
loads, and new construction materials. These result in faster 
spreads, shorter time to flashover, less time to escape, and 
more rapid collapse.
    Secondly, the Baby Boomers are hitting the local fire and 
emergency services response system. We have more than 30 years 
of data to show that senior citizens are the high-risk group 
for fires, the high-risk group for accidents, and the high-
demand group for emergency medical services. The beginning of 
the Boomers are turning 71 this past January, and the trailing 
end turning 53, and their life expectancy is 85 years. We 
anticipate 32 more years of high demand for emergency services 
by our most vulnerable population.
    Thirdly, the wildland fire issue including the wildland-
urban interface where civilization meets the forest is a 
growing problem. What once was seasonal is now perennial, 
beginning earlier and ending later each year. People are living 
in the WUI, and once a wildland fire starts within miles of 
their home, they're vulnerable. This is a nationwide issue from 
the East in Florida and Tennessee to the West in Utah, Arizona 
and California.
    Fourthly, fire departments are now an essential element in 
the response to active shooters. As a recent example, Chief 
Tammy Kaya was the first arriving fire chief officer at the 
Dallas police shooting. She continues to publicly state that 
her success in managing the medical response was the training 
that she received at the National Fire Academy.
    To address these four concerns, the NFA provides cutting-
edge education and training to America's estimated 1.3 million 
firefighters. Courses are delivered in classrooms at the 
National Emergency Training Center in classrooms throughout the 
United States in cooperation with accredited state and local 
fire training agencies and colleges and universities. The NFA 
also has a robust system of online instructor-mediated and 
self-study courses.
    Our National Fire Data Center continues to modernize the 
National Fire Incident Reporting System browsing tool along 
with other web tool applications to improve the overall 
reliability, performance, ease of data entry, and 
administration by fire departments and state users. This 
modernization will allow users to access the NFIRS data 
warehouse to access, share and compare data.
    Finally, Madam Chair, I want to thank you and the 
Committee's generous gifts of time and interest, and I 
appreciate the opportunity to highlight the accomplishments of 
the Fire Administration and the hard work of our staff. Your 
continued support is instrumental as we work to make America 
fire safe. I'll be happy to answer any questions.
    [The prepared statement of Dr. Onieal follows:]
    [GRAPHIC] [TIFF OMITTED] T6238.009
    
    [GRAPHIC] [TIFF OMITTED] T6238.010
    
    [GRAPHIC] [TIFF OMITTED] T6238.011
    
    [GRAPHIC] [TIFF OMITTED] T6238.012
    
    [GRAPHIC] [TIFF OMITTED] T6238.013
    
    [GRAPHIC] [TIFF OMITTED] T6238.014
    
    [GRAPHIC] [TIFF OMITTED] T6238.015
    
    [GRAPHIC] [TIFF OMITTED] T6238.016
    
    [GRAPHIC] [TIFF OMITTED] T6238.017
    
    [GRAPHIC] [TIFF OMITTED] T6238.018
    
    Chairwoman Comstock. Thank you.
    And I now recognize Chief Sinclair for five minutes to 
present his testimony.

               TESTIMONY OF CHIEF JOHN SINCLAIR,

               PRESIDENT AND CHAIR OF THE BOARD,

           INTERNATIONAL ASSOCIATION OF FIRE CHIEFS;

        FIRE CHIEF, KITTITAS VALLEY FIRE AND RESCUE (WA)

    Chief Sinclair. Good morning, Chairman Comstock, Ranking 
Member Lipinski, and Members of the Subcommittee. I am Chief 
John Sinclair, Fire Chief of the Kittitas Valley Fire and 
Rescue Department in Ellensburg, Washington. Today I testify as 
the President and Chairman of the Board of the International 
Association of Fire Chiefs. On behalf of the 12,000 members of 
the IAFC, I thank you for the opportunity to discuss the 
effectiveness of the Assistance to Firefighters Grant program 
including the SAFER grant program along with the U.S. Fire 
Administration.
    The role of America's fire and emergency service continues 
to evolve to cover new missions such as EMS, hazmat and 
terrorism response. The USFA and the AFG and SAFER grant 
programs are important partners in helping the nation's fire 
and emergency service meet this challenge. The AFG program was 
created by Congress in 2000 to help fire departments provide 
baseline emergency response for their communities. This FEMA 
program uses a highly respected merit-based peer-review process 
to evaluate grant applications and provide matching grants to 
local fire departments. The AFG program helps fire departments 
with equipment and training. The SAFER program helps fire 
departments meet staffing needs, and the Fire Prevention and 
Safety program supports fire prevention programs and research 
to promote firefighter and civilian fire safety.
    The AFG program has helped my department. Using AFG grants, 
KVFR purchased personal protective equipment and self-contained 
breathing apparatus for our firefighters. These purchases 
improved their safety and helped improve regional 
interoperability between local fire departments that eventually 
led to a merger, making a more effective and efficient response 
force.
    The SAFER grant program plays a vital role in helping local 
fire departments meet staffing needs. Besides providing 
matching grants for career firefighters, the SAFER grant 
program also provides grants for volunteer recruitment and 
retention. Approximately 70 percent of the nation's 
firefighters are volunteers. Nevertheless, fire departments 
face trouble recruiting and retaining volunteers who must 
balance firefighting and training requirements with job and 
family commitments. By partnering with state chiefs 
organizations in Virginia, Connecticut and Tennessee, the IAFC 
is working on SAFER-funded initiatives to help local fire 
departments recruit and retain volunteers. These programs 
include marketing campaigns and leadership training to help 
volunteer fire chiefs.
    I want to recognize Representative Esty for her assistance 
in a PSA helping with the Connecticut program. The Connecticut 
campaign led to 900 events, distributed 68,000 marketing 
materials, and resulted in 400 new volunteer firefighters. The 
Virginia campaign resulted in more than 1,100 applications in 
15 participating departments with 656 new members that came in.
    I would also like to highlight the life-saving research 
funded by the Fire Prevention and Safety Grant program. The 
IAFC's FSTAR program translates the research funded by these 
grants into actionable information that affects tactics on the 
fire ground, including fact sheets on fire dynamics, structural 
integrity and firefighter health to help fire departments 
improve their operations. The FSTAR program has also produced 
guidance to help doctors provide rigorous physicals to 
firefighters to reduce the number of strokes, heart attacks, 
and injuries.
    Despite the effectiveness of the AFG and SAFER programs, 
many fire departments still need assistance meeting basic 
staffing, equipment and training needs. We ask the Subcommittee 
to reauthorize AFG and SAFER programs. The IAFC endorsed Senate 
bill 829. This legislation would authorize funding for the AFG 
and SAFER grant programs through fiscal year 2023. Also, it 
removed the January 2, 2018, sunset date that would eliminate 
the programs. In addition, S. 829 would make technical and 
administrative changes to improve the program's efficiency and 
reduce waste, fraud, and abuse.
    I would also like to recognize Dr. Onieal and the important 
role that U.S. Fire Administration plays. The National Fire 
Academy is the West Point or Quantico of the fire and emergency 
services. Using both in-person and online training, NFA 
educates tens of thousands of fire service leaders every year 
about how to adapt to emerging issues and lead their 
departments better. We congratulate the President for 
appointing Chief Keith Bryant as the U.S. Fire Administrator.
    I ask that the Committee also reauthorize USFA this year. 
It is important that USFA continue to have dedicated funding. 
This funding should be used to continue to develop policy and 
guidance, revise curricula at the NFA, and maintain 
infrastructure and information technology. I also encourage the 
USFA to provide guidance to fire departments as they address 
behavioral health and wellness issues.
    I thank the Committee for the opportunity to testify at 
today's hearing. The AFG and SAFER programs and the USFA are 
important partners in helping local fire departments address an 
evolving all-hazards mission. On behalf of the nation's fire 
chiefs, I look forward to working with the Committee to 
reauthorize these critical programs. Thank you very much.
    [The prepared statement of Chief Sinclair follows:]
    [GRAPHIC] [TIFF OMITTED] T6238.019
    
    [GRAPHIC] [TIFF OMITTED] T6238.020
    
    [GRAPHIC] [TIFF OMITTED] T6238.021
    
    [GRAPHIC] [TIFF OMITTED] T6238.022
    
    [GRAPHIC] [TIFF OMITTED] T6238.023
    
    [GRAPHIC] [TIFF OMITTED] T6238.024
    
    [GRAPHIC] [TIFF OMITTED] T6238.025
    
    [GRAPHIC] [TIFF OMITTED] T6238.026
    
    Chairwoman Comstock. Thank you.
    And I now recognize Captain Niemiec for five minutes to 
present his testimony.

               TESTIMONY OF CAPTAIN JOHN NIEMIEC,

                 PRESIDENT, FAIRFAX COUNTY (VA)

                   PROFESSIONAL FIRE FIGHTERS

                  AND PARAMEDICS-INTERNATIONAL

            ASSOCIATION OF FIRE FIGHTERS LOCAL 2068

    Captain Niemiec. Thank you, Chairwoman Comstock, Ranking 
Member Lipinski, yakshemash, and distinguished members of the 
Subcommittee. Good morning. My name is John Niemiec, and I am 
the President of the Fairfax County Professional Fire Fighters 
and Paramedics. I appreciate the opportunity to appear before 
you today on behalf of the International Association of Fire 
Fighters and over 305,000 firefighter and emergency medical 
personnel who serve in every Congressional district in this 
nation. I come before you today to offer my full support for 
the SAFE and FIRE grant programs and urge the Subcommittee to 
reauthorize these programs.
    SAFER and FIRE grants have proven themselves to be highly 
effective, allowing local fire departments to make significant 
progress in their baseline capabilities. According to the 2015 
needs assessment of the Fire Service by the National Fire 
Protection Association, SAFER and FIRE have helped local fire 
departments improve staffing, equipment and training levels. 
For example, 2010 to 2015, the number of fire departments 
serving midsized cities meeting safe staffing standards have 
increased by 25 percent. Such studies also show significant 
improvements in certain categories of personal protective 
equipment and training. For example, departments of all sizes 
have improved the percentage of personnel with Personal Alert 
Safety System, or PASS devices. In 2001, only 38 percent of 
fire departments equipped all responders on a shift with their 
own PASS device, a necessity to find injured or lost 
firefighter in an emergency. This figure jumped to 72 percent 
in 2015, a result NFPA speculates due to FIRE grant funding.
    Thousands of communities, large and small, across this 
nation have been aided by the SAFER and FIRE grant programs 
including my department, the Fairfax County Fire and Rescue 
Department. I have served the department for over 30 years and 
have seen firsthand the remarkable service delivery 
improvements we have achieved through both SAFER and FIRE. For 
example, Fairfax County received FIRE grants in 2015 and 2016 
to provide training to 54 advanced life support providers, 
upgrading their emergency medical skills and certification. 
These awards exclusively allowed our department to upgrade all 
frontline responding units to the paramedic level, allowing the 
county to deliver high-quality EMS care in a more timely 
manner.
    Fairfax County has also benefited from SAFER grants, which 
allowed the county to hire an additional 49 firefighters, 
improving response capabilities by staffing all 14 ladder 
trucks with four personnel. This staffing level has allowed the 
county to reduce risk for the citizens, minimize property loss, 
and increase firefighter safety.
    I am proud of the progress Fairfax County has made with the 
help of SAFER and FIRE grants, and many communities across 
America can say the same, yet despite the progress made in 
communities large and small, the need for funding through the 
SAFER and FIRE grant program persists. Many fire departments 
continue struggling to meet appropriate staffing, training and 
equipment standards. The 2015 NFPA needs assessment identified 
many of these weaknesses. For example, 49 of all departments 
have failed to formally train all of their personnel involved 
in structural firefighting. Fifty percent of departments 
operate without enough portable radios to equip all emergency 
responders on a shift, and 53 percent of departments could not 
equip all firefighters with self-containing breathing 
apparatus.
    As you know, work has begun in the Senate to reauthorize 
these critical grant programs. Recently, the Homeland Security 
and Governmental Affairs Committee unanimously approved Senate 
bill 829, the AFG and SAFER Program Reauthorization Act of 
2017. The bill is a simple reauthorization of SAFER and FIRE. 
It makes several minor but necessary technical corrections and 
eliminates a sunset provision on the programs. The IAFF and all 
major national fire service organizations have worked 
collectively with the Senators for many months to help craft 
this bill and have offered it our enthusiastic endorsement. We 
believe SAFER and FIRE have been refined over the many years 
the programs have been in place. The grants are working 
effectively and efficiently, and we do not recommend making 
major changes to the programs. As you well know, SAFER and 
FIRE's current authorization expires on September 30th of this 
year, and the programs are due to sunset on January 2, 2018. 
Therefore, I strongly encourage the Subcommittee to move 
swiftly to reauthorize SAFER and FIRE to reassure their 
continuance without interruption.
    Again, I'd like to thank the Subcommittee for the 
opportunity to testify today, and I'm happy to answer any 
questions you may have. Thank you.
    [The prepared statement of Captain Niemiec follows:]
    [GRAPHIC] [TIFF OMITTED] T6238.027
    
    [GRAPHIC] [TIFF OMITTED] T6238.028
    
    [GRAPHIC] [TIFF OMITTED] T6238.029
    
    [GRAPHIC] [TIFF OMITTED] T6238.030
    
    [GRAPHIC] [TIFF OMITTED] T6238.031
    
    [GRAPHIC] [TIFF OMITTED] T6238.032
    
    [GRAPHIC] [TIFF OMITTED] T6238.033
    
    [GRAPHIC] [TIFF OMITTED] T6238.034
    
    [GRAPHIC] [TIFF OMITTED] T6238.035
    
    Chairwoman Comstock. And we now recognize Mr. Hirsch for 
his testimony.

        TESTIMONY OF MR. STEVE HIRSCH, FIRST VICE CHAIR,

                NATIONAL VOLUNTEER FIRE COUNCIL;

      TRAINING OFFICER, SHERIDAN COUNTY FIRE DISTRICT #1,

                THOMAS COUNTY FIRE DISTRICT #4,

               AND GRINNELL FIRE DEPARTMENT (KS)

    Mr. Hirsch. Thank you. My name is Steve Hirsch. I'm First 
Vice Chair of the National Volunteer Fire Council, which 
represents the interests of the nation's more than a million 
volunteer fire, EMS and rescue personnel. I'd like to thank the 
Subcommittee and especially my own Congressman, Dr. Marshall, 
for inviting me here to testify today about the need to 
reauthorize AFG and SAFER as well as the U.S. Fire 
Administration.
    I want to begin by highlighting the critical need for 
Congress to reauthorize AFG and SAFER prior to January 2nd. As 
the Committee's aware, there's a provision in the current law 
that eliminates those programs if they're not reauthorized 
before that date. This would be a severe blow to the nation's 
fire service and would put thousands of committees across the 
country at risk. If you take only one thing away from my 
testimony, it should be the need to move quickly to reauthorize 
those programs.
    My own Sheridan County Fire Department's been fortunate to 
receive grants for protective gear and hose, to replace a fire 
truck that was 50 years old, to buy a compressor to refill our 
air tanks without having to make a 60-mile round trip, for 
heavy-duty washing machines to keep our gear clean and 
eliminate carcinogens. Our neighboring departments use our 
washing machine and compressor, so the value of the program 
goes well beyond the benefit to our own department.
    I spend a lot of time teaching in all-volunteer fire 
departments across Kansas at least once a month, and I can tell 
you firsthand there's an overwhelming amount of need. Those are 
small towns with very small tax bases. How can a department 
with an annual budget of $10,000 ever hope to replace bunker 
gear at $3,000 a person? How can they hope to buy a new brush 
rig to fight wildfires? Well, they have that hope because of 
the AFG program.
    Recently, I called the widow of a firefighter in my 
community who died in the line of duty in 1967. The department 
at that time had no gear and no formal training. Carroll 
Ferguson was killed when a chimney fell on him as he was 
fighting a fire at a rural house in the county. The impact of 
that death continues to reverberate in our community 50 years 
later. Firefighters risk their lives every time they respond to 
a call, and the AFG program helps to minimize that danger by 
helping departments buy equipment and get training that they 
would otherwise not be able to afford.
    The NVFC strongly opposes changes in the authorization that 
would divert money away from the AFG program or from local fire 
departments. The competition for this funding is very intense. 
There are a lot of departments that are applying that are not 
being funded and a lot of need that's not being met. Any shift 
and changes out of the AFG program would only make things 
worse.
    The SAFER program helps to increase or maintain a number of 
firefighters in the United States. Ten percent of the SAFER 
funds go to recruit and retain volunteers. These help 
departments create marketing plans to recruit new volunteers 
and establish benefit programs and have other retention 
strategies to keep volunteers in the department.
    The volunteer fire service is changing because the 
country's changing, and that's why the SAFER program is 
critical. The traditional staffing model where children live 
and work in the same community where they grew up and follow 
their parents into the volunteer fire service is changing. 
Young folks are more mobile. Folks are moving out of rural 
communities to find work and commuting longer distances to and 
from work. There are more households in which both adults in 
the home have jobs, and of course, that disrupts the ability of 
the volunteer fire department to staff. We can't just sit back 
and wait for volunteers to come walking through our door. The 
SAFER gives local departments the tools to go out in the 
community and recruit folks to become volunteer firefighters.
    Our organization is also not seeking any major changes to 
the AFG or SAFER programs in the reauthorization. There are 
relative minor changes that we're seeking that are outlined in 
my written testimony.
    Finally, the U.S. Fire Administration provides training to 
more than 100,000 fire and emergency service personnel each 
year. The USFA also performs research and collects data 
specific to the fire service and educates the public on the 
importance of fire safety. It is our organization's belief that 
the U.S. Fire Administration does a great job given the 
resources available to them, and we're not seeking any changes 
to the current authorization.
    If you'll indulge me just a little bit for this farm boy 
volunteer firefighter from western Kansas, when you work this 
bill, when you talk with your colleagues, when you vote, I 
would implore you, in fact, I would beg you to think about 
Carroll Ferguson, who left his job at the meat counter of the 
local grocery store in June of 1967, never returning home. How 
much difference these programs could have made in that family's 
life had they had proper equipment and good training, and 
that's why these programs are so important. Even more so, I 
want you to think about who the person in that family who was 
the real hero, his widow, Marie, who was left without a husband 
and three very small children who didn't have a daddy any 
longer. These grant programs are helping keep volunteer 
firefighters alive without any doubt in my mind. Those are 
firefighters who don't get a paycheck. They do it because they 
love their fellow man.
    So thank you for your past support, thank you for listening 
to me, and thank you for helping keep our firefighters alive by 
supporting these programs.
    [The prepared statement of Mr. Hirsch follows:]
    [GRAPHIC] [TIFF OMITTED] T6238.036
    
    [GRAPHIC] [TIFF OMITTED] T6238.037
    
    [GRAPHIC] [TIFF OMITTED] T6238.038
    
    [GRAPHIC] [TIFF OMITTED] T6238.039
    
    [GRAPHIC] [TIFF OMITTED] T6238.040
    
    [GRAPHIC] [TIFF OMITTED] T6238.041
    
    [GRAPHIC] [TIFF OMITTED] T6238.042
    
    [GRAPHIC] [TIFF OMITTED] T6238.043
    
    [GRAPHIC] [TIFF OMITTED] T6238.044
    
    [GRAPHIC] [TIFF OMITTED] T6238.045
    
    [GRAPHIC] [TIFF OMITTED] T6238.046
    
    [GRAPHIC] [TIFF OMITTED] T6238.047
    
    [GRAPHIC] [TIFF OMITTED] T6238.048
    
    Chairwoman Comstock. I now recognize Dr. Horn to present 
his testimony.

                  TESTIMONY OF DR. GAVIN HORN,

                   RESEARCH PROGRAM DIRECTOR,

                ILLINOIS FIRE SERVICE INSTITUTE

    Dr. Horn. Chairman Comstock, Ranking Member Lipinski, and 
Members of the Subcommittee, thank you for the opportunity to 
participate in this important hearing.
    As part of the larger discussion, I would like to focus my 
comments specifically on the American research enterprise that 
is supporting the fire safety of the nation through a component 
of the AFG grants, specifically, the Fire Prevention Safety 
Grant program. Between fiscal year 2011 and fiscal year 2015, a 
little over $170 million has been awarded from the Fire 
Prevention program, approximately $33 million of which has been 
devoted to the research and development activities, which I'll 
refer to as R&D.
    A little over $6.5 million and six projects per year have 
been supported between fiscal year 2011 and 2015, a significant 
reduction from fiscal year 2006 to fiscal year 2010 where an 
average of nearly $10 million was awarded for over 11 projects 
per year.
    While a relatively small component of the overall AFG 
program, the fire prevention safety R&D activities are unique 
in that they support national programs, which strengthen local 
fire departments' ability to utilize the larger AFG and SAFER 
programs. Indeed, this is the only program, only national 
funding program specifically devoted to enhancing the health, 
safety and effectiveness of firefighters through projects such 
as the one that you'll see on the video screen that's going to 
play behind me.
    The fire service is in desperate need of federal funding to 
advance research projects that support evidence-based policies 
to address longstanding issues in this dangerous occupation. At 
the same time, the risks, the hazards are evolving as the fire 
service responds to new operational realities and new 
operational missions.
    A variety of organizations and stakeholders developed a 
series of needs analysis and research agenda to support fire 
departments in the face of this changing risk profile. 
Documents such as Project Responder and Interagency Board 
Priority List along with firefighter-centric needs analysis 
produced by stakeholders and partners--the National Fallen 
Firefighters Foundation, the Fire Protection Research 
Foundation--in addition to specific word by NIST, their 
research roadmap for smart firefighting and NFPA's United 
States Fire Service Needs analysis, quite important snapshots 
of the American fire service which I review in my written 
testimony.
    However, these documents are importantly reviewed very 
regularly and updated by the fire service stakeholders 
themselves, often with the research community. In each funding 
cycle for the Fire Prevention Safety grants, they provide 
invaluable support as the voice of the fire service to guide 
investments made by the AFG in this area.
    Stated bluntly, the Fire Prevention Safety R&D grant 
program is absolutely vital for a broad-based, action-oriented 
federal research program focused on the needs of the fire 
community, one that provides incredibly high impact for fire 
departments across the country with relatively small 
investment. Largely due to the recent Fire Prevention Safety-
supported research projects, significant advancements have had 
a direct and profound impact on the fire service. Our 
understanding of the hazards associated with structural 
firefighting, the need for appropriate staffing levels, 
effective and efficient tactics, and cardiovascular risks 
associated with firefighting have all had dramatically 
increased understanding due to the focused research support by 
this R&D program. We must continue to be evaluated as our 
landscape continues to evolve.
    Our understanding of the chemical and toxic exposure that a 
firefighter faces is beginning to come into focus, and our 
understanding of the post-traumatic stress impact is just now 
developing, and risks from outside the traditional response 
theater including violent incidents and changing costs related 
to drug--to the drugs are driving demand for changes in 
protection beyond the traditional formal considerations. And 
the world around us begins to embrace smart technologies and 
internet of things, we too are learning how to leverage this 
cyber physical infrastructure to improve our capabilities and 
our effectiveness.
    Impacting these areas, the R&D program has had significant 
broader impacts. It's driven an increase in scientific 
literature focused on the firefighter themselves. Dr. Sara 
Jahnke from the National Development Research Institute did an 
analysis and showed that almost 70 percent of all articles that 
are referenced on the PubMed index with the term 
``firefighter'' come from after the advent of R&D funding over 
the past ten years, 70 percent. It changes in a way academic 
researchers interact with the fire service have driven drastic 
improvement in the research to practice protocol. As a result, 
there are specific and focused efforts that have influenced a 
wide range of standards and policies across the country from 
PPE manufacturing to fire ground tactics, to health and safety 
practices, to purchasing decisions. Research is impacting 
practice. And this research has included broader impacts well 
beyond the fire service, adding to the state of science in many 
disciplines that support the fire service.
    So while the Fire Prevention Safety program has been 
successful in supporting the evolving needs of the fire 
service, there's important opportunities that could lead to 
even greater reach of this program, which I detail in my 
written testimony, but a couple important points.
    Considering the high benefit-to-cost ratio, it would be 
appropriate to restore funding and award rates at the levels at 
fiscal year 2006 to fiscal year 2010 at a very minimum. It is 
also important to look at different funding mechanisms, 
providing for longer duration funding mechanisms which would 
allow longitudinal projects such as a five-year-plus potential 
for five more years of renewal would allow research to use the 
strongest research design available which will allow even 
greater scientific rigor and further increase credibility of 
the program.
    There's been discussion for years of funding centers of 
excellence through the Fire Prevention Safety program, and 
there's now a broad discipline--broad-based transdisciplinary 
group that can support that work and benefit from that.
    It's also important to continue to fund an increase of 
visibility for exploratory projects that can help lead the fire 
service's understanding of some of the risks that we face on 
the fire ground.
    In summary, the Fire Prevention Safety Grant and 
particularly the R&D program is a relatively small component of 
the AFG activity but it has a broad national impact. It informs 
the conversation held by many of the fire service organizations 
sitting here. It supports fire service local departments by 
empowering improved purchasing decisions to the AFG grant 
program, better understanding of manpower requirements through 
SAFER, and informed development of local policies, procedures 
and practices based on the best science available.
    Thank you very much for the opportunity and welcome any 
questions at the appropriate time.
    [The prepared statement of Dr. Horn follows:]
    [GRAPHIC] [TIFF OMITTED] T6238.049
    
    [GRAPHIC] [TIFF OMITTED] T6238.050
    
    [GRAPHIC] [TIFF OMITTED] T6238.051
    
    [GRAPHIC] [TIFF OMITTED] T6238.052
    
    [GRAPHIC] [TIFF OMITTED] T6238.053
    
    [GRAPHIC] [TIFF OMITTED] T6238.054
    
    [GRAPHIC] [TIFF OMITTED] T6238.055
    
    [GRAPHIC] [TIFF OMITTED] T6238.056
    
    [GRAPHIC] [TIFF OMITTED] T6238.057
    
    [GRAPHIC] [TIFF OMITTED] T6238.058
    
    [GRAPHIC] [TIFF OMITTED] T6238.059
    
    [GRAPHIC] [TIFF OMITTED] T6238.060
    
    [GRAPHIC] [TIFF OMITTED] T6238.061
    
    [GRAPHIC] [TIFF OMITTED] T6238.062
    
    [GRAPHIC] [TIFF OMITTED] T6238.063
    
    Chairwoman Comstock. Thank you.
    And I now recognize Chief Browning for five minutes.

         TESTIMONY OF CHIEF H. ``BUTCH'' BROWNING, JR.,

                PRESIDENT, NATIONAL ASSOCIATION

                    OF STATE FIRE MARSHALS,

                  LOUISIANA STATE FIRE MARSHAL

    Chief Browning. Thank you, Madam Chairwoman. It's indeed an 
honor to be here. I'm Butch Browning. I'm the Louisiana State 
Fire Marshal and I'm currently president of the National 
Association of State Fire Marshals. Over my left shoulder is 
the Virginia State Fire Marshal, Brian McGraw. I appreciate his 
attendance and support here today.
    The National Association of State Fire Marshals represents 
the senior state officials in every state, so it's a small 
group of 50 people who work very hard in their states to 
support their local fire departments, primarily drive fire 
prevention programs, fire investigation programs, and data 
programs, and I'll talk a little bit about that in a minute.
    We want to make no doubt about it. The National Association 
of State Fire Marshals fully support the reauthorization of the 
AFG, the SAFER, and the Fire Prevention and Safety grants. In 
addition, as a personal product of the National Fire Academy, 
I'll you it is the West Point or any other higher, most 
prestigious institution you can think of. What it does for our 
state and the people who go to that who have no opportunities 
in many cases to get leadership training is just phenomenal, 
and I certainly appreciate what they've done for my life, and 
you know, I just come before you as an old Louisiana boy, a 
south Louisiana boy, not north Louisiana, and your temperatures 
here remind me of being home. But I've just got to tell you, 
people are alive today, firefighters and citizens, in part to 
this entire grant program, and the gentlemen who are sitting up 
here today have seen many, many circumstances of death and 
loss, and you know, what I encourage you to do, and I think 
you're doing that, I encourage you to look into the eyes of 
your firefighters in your districts because you will hear real 
stories of domestic defenders, and I appreciate that.
    At 14 years old, I got involved in the volunteer fire 
service and found it to be my passion, moved up the ranks, 
became a fire chief. About 6 months before Hurricane Katrina, 
we had an AFG grant in the hopper for interoperability, which 
we didn't have those radios when Katrina came. We were awarded 
those radios months after, and our department was then ready to 
handle disasters, and those radios would have never been 
purchased had it not been for the AFG program. The staffing of 
firefighters across this country is phenomenal. We have to keep 
those things up. And of course, the fire prevention and safety.
    What I didn't tell you about me is what got me into this 
business. When I was three years old, I was significantly 
burned in a fire. My dad subsequently joined the volunteer fire 
department and put me in the position that I'm in today. The 
story is what caused my fire was prior to codes and standards 
when water heaters were not 18 inches off the ground. Today 
they are. So I'll tell you fire prevention and safety have 
saved many children's lives, and I certainly respect that and 
appreciate that.
    I come before you today representing the National Fire 
Marshals asking that we change the percentage that goes to fire 
prevention and safety. See, we believe that we need to move 
some funds from the open competition. We need to remove eight 
percent into fire prevention and safety to not only get more 
fire prevention and safety but to provide statewide support to 
what we do. You know, in the State of Louisiana, we had an 
operation Save a Life program. We've installed almost 35,000 
smoke alarms across the state. In its first year, 12 people's 
lives were saved. These alarms were installed by small, large 
and medium fire departments across the state, so we know it 
works. We know that saving lives is important. We know that 
fire prevention safety and data. We know that fire suppression 
forces, and we know that fire investigation and analysis is the 
way for us to protect the American fire problem.
    I'm going to leave you because I want to be brief, and it's 
kind of on the heels of Mr. Hirsch's story of Mr. Ferguson, who 
paid the ultimate sacrifice. This past Sunday, I had to give 
the eulogy to yet another Louisiana firefighter who gave their 
lives serving their community, a firefighter who was responding 
to a structure fire, and the firefighter didn't make it. He was 
involved in a horrific accident in the fire apparatus, and I 
had to look into the eyes of that family, and what I'll tell 
you that family's telling you today is that we need more 
equipment, we need more firefighters, we need more prevention 
and safety. Those three things working together will go a long 
way in reducing America's fire problem, and we can rewind to 
America burning. We can rewind to before we had some of the 
fire prevention programs and before we had some of the better 
training for firefighters and see that we made some great 
headway. This investigation works.
    So I come to you in partnership, I come to you in thanks, 
and I look forward to this process.
    [The prepared statement of Chief Browning follows:]
    [GRAPHIC] [TIFF OMITTED] T6238.064
    
    [GRAPHIC] [TIFF OMITTED] T6238.065
    
    [GRAPHIC] [TIFF OMITTED] T6238.066
    
    [GRAPHIC] [TIFF OMITTED] T6238.067
    
    [GRAPHIC] [TIFF OMITTED] T6238.068
    
    [GRAPHIC] [TIFF OMITTED] T6238.069
    
    [GRAPHIC] [TIFF OMITTED] T6238.070
    
    [GRAPHIC] [TIFF OMITTED] T6238.071
    
    [GRAPHIC] [TIFF OMITTED] T6238.072
    
    Chairwoman Comstock. Thank you. Great.
    And I now recognize myself for five minutes for questions.
    As a longtime resident of Fairfax County, I recognize that 
I've had some of the concerns that you identified on structures 
and hazardous materials and all the things that we need to be 
dealing with, and that's why I'm very interested in the 
Firefighter Cancer Registry Act that we've worked on together, 
and thank you for your efforts on highlighting that issue.
    How are we able to use technology both in that area as well 
as some of these other areas like, for example when you're 
going into a structure, what technologies do we have now that 
might help to better identify where we're going in keeping in 
touch with everyone. You mentioned the PASS devices that will 
help. But also things like some of the technology we're using 
to develop lighter materials that people will have on to 
protect themselves as well as lighter and more refined and 
better materials for breathing apparatus so that you'll be both 
protected but also long-term health consequences. So what 
breakthroughs are you seeing there and how can these grants 
help in those areas? I will start with Captain Niemiec but 
welcome you all to answer.
    Mr. Lipinski and I are on the Science Committee so very 
interested in how we can--and I've certainly seen this in my 
departments, the new technology and the real promise of both 
making safer communities but making life easier for our 
firefighters. I mean, it's never easy but safer.
    Captain Niemiec. First and foremost, Madam Chair, I will 
say, you know, through the education, through the prevention--
and we have always taken the mantra in Fairfax County of 
preventing the 911 call, but how does that relate to the 
firefighters and paramedics in Fairfax County? Last week, 
several of my colleagues here met and were engaged and involved 
in a program called Wellness Fitness Initiative, and part of 
that program is doing just that, is looking at the wellness, 
looking at the prevention, and then should one of these 
firefighters or paramedics come down with a cancer, with, you 
know, cardiac disease, we want to set that standard so that 
that individual is able to, one, get back on the rig, and then 
to have the ability to have good quality of life. So we are 
setting those standards. That of course is coupled with the 
equipment that we currently have. That's where one, the SAFER, 
dealing with individuals, dealing with personnel, and then as 
far as the FIRE grant, dealing with things, and because of 
these items, in Fairfax County we have been able to get from 
the AFG, we have been able to do a lot of the prevention, and 
then if a firefighter, if a firefighter is involved in an 
emergency situation, not only are we able to provide the 
training but we have the necessary tools to ensure that that 
firefighter or firefighters gets out alive.
    Chairwoman Comstock. And others? I'm particularly 
interested in any sort of new devices that you can show us that 
I'd like to be able to demonstrate to my colleagues as we're 
advocating more need for this. The more things that we can put 
in your hands and technology in that way, sometimes that's a 
very vivid way to demonstrate if people can see how this will 
make your lives and your jobs safer.
    Chief Sinclair. Yes. Thank you very much, Chairwoman 
Comstock, for the question.
    The first thing that I want to do is make sure that we 
recognize that a significant amount of information has been new 
to the fire service over the last couple of years since the 
research has come in. A lot of that has to do with the health 
of the firefighters. A significant doctrinal shift is ongoing 
right now in the fire service as it relates to transitional 
attacks, the way that we actually attack fires, because of what 
we now know due to the research being done by Dr. Horn and NIST 
and NIOSH that we're not pushing fire like we previously 
thought, that we can actually hit it defensively and then 
transition into an offensive attack where we go inside, because 
once you knock the fire down from the outside and then 
transition to an interior attack, it is safer for the 
firefighters.
    Our modern home has been plasticized, and as those 
materials burn, they create these aromatic hydrocarbons that 
attach to the skin. In the video that you saw, you saw them 
wiping down, doing gross decon of the firefighters, and we know 
that 54 percent of those can be taken off the skin in the gross 
decon but that means that 46 percent of that cancer-causing 
aromatics will still remain on the firefighters' skin.
    So relative to new technology, we just are beginning to see 
the governors opt in to FirstNet, which is the public safety 
broadband trust, and we will soon be having communications 
equipment that will be providing information to incident 
commanders, something like a recognized phone that has data 
streams and data elements. We should be able to have wearable 
technology whereby we will be able to find the X, Y and Z 
coordinates for every firefighter that is on the scene. All of 
that is being done in cooperation with these types of grants, 
this type of information, and we're just right on the cusp of 
seeing a lot of things that are coming down the road in the 
next couple of years. Thank you.
    Chairwoman Comstock. Thank you, and I see that I'm out of 
time, but I would invite any of you to share any of that 
information with the Committee so that we can, as we're doing 
our job of advocating for these grants, really draw that 
picture for our colleagues. Thank you.
    Now I recognize Mr. Lipinski.
    Mr. Lipinski. Thank you.
    Captain Niemiec, dzien dobre, and I'm not going to push my 
Polish any more than that.
    Chief Browning, you had mentioned that you had said we 
should look in the eyes of our firefighters, first responders, 
and learn about what they're doing, and I want to thank all of 
you for--you know, we are here to do that. We do that back in 
home districts. I know I certainly do, and appreciate the work 
that you do, and we are here to help you better do that work 
beyond the front line.
    I want to ask Dr. Horn about some things, more things that 
may be helpful to get this research out there to the frontline. 
As you know, research and development is really a system of 
feedback loops between fundamental research, development, and 
then deployment. You discussed the research of practice needs 
and opportunities in your testimony, and also discussed the 
need for a dedicated pot of funding for applied research needs 
because agencies such as NSF and NIH primarily support basic 
research. Please elaborate on the need for the Fire Prevention 
and Safety grant program and how it helps in translating 
research to the standards and tools used in the fire service 
community, and what more can be done to translate research into 
practice including through increased partnerships between 
researchers and firefighting organizations.
    Dr. Horn. Thank you very much for that question. It's a 
very important question because the research dollars are 
difficult to come by and need to be allocated in the most 
effective manner possible. The AFG through the Fire Prevention 
Safety Research and Development grants ties the fire service 
into the grants from the very beginning of the process. So I 
mentioned a series of needs analysis and research agenda that 
exists, and those are all put together by the fire service. 
Various different aspects of the fire ground are considered and 
focused on that research agenda but those drive the grants that 
are being funded by the Fire Prevention Safety program.
    So the funding itself is actually driven by the needs of 
the fire service, and those needs are very often not focused on 
the applied research, getting some technology, getting some 
technique, informing policies, informing practices much like 
Chief Sinclair just mentioned, informing practice based on 
science, looking at tactics based on scientific principles. 
These are things that aren't easily funded through National 
Science Foundation and NIH because it's a tactical priority yet 
we can now make our firefighters safer, help them to make 
better decisions by looking at the broader understanding of the 
tactics that we are using in order to address these problems.
    So the fire service is setting the priorities for each of 
these grants. What's also very unique about this program is 
that the fire service sits at the table. The firefighters 
themselves are reviewing each of these grants compared to those 
priorities and indicating whether or not that is fundable from 
a firefighter-specific perspective, and it goes to a scientific 
review process. Few other grant programs have that dual role, 
dual bosses for the project. So the firefighters themselves 
will not get to the scientific review unless it does have some 
strong fire service review.
    And then throughout these projects, the research-to-
practice avenue has been incredibly--because firefighters 
become parts of each these projects. Advisory boards on all 
these projects usually involve fire service from across the 
country, east to west, north to south, from firefighters to 
fire chiefs, and they help guide the programs. The Fire 
Protection Research Foundation does a great job for departments 
or different agencies that don't have contacts or direct access 
to national fire service. They help put together an advisory 
board for those so that the data becomes vetted through that 
group before it goes out to the fire service themselves. So the 
fire service is involved in this program from start to finish, 
and as a result, it directly translates to standards. It 
directly translates to policies, and increase in the change in 
some of the technologies have been discussed, and we could talk 
about many more from Chairwoman Comstock's question are being 
developed because of the research that has the fire service at 
the table from the very beginning.
    Mr. Lipinski. Thank you. Very quickly, Dr. Onieal, how does 
the Fire Administration make sure you're leveraging the 
relevant research work of other federal agencies such as DHS, 
Science and Technology Directorate, NIST engineering lab, and 
the National Science Foundation?
    Dr. Onieal. Thank you for the question, Mr. Lipinski. We 
work very closely. We have staff that works with all of those 
different agencies. We more or less serve as technical experts. 
We give the information back to the fire and emergency services 
through our distribution outlets, and that's typically--they'll 
all us up all the time and they'll give us an opportunity to 
participate. So we more or less serve as technical experts on 
whatever research is being done.
    Mr. Lipinski. All right. Thank you very much, and I yield 
back the balance of my time.
    Chairwoman Comstock. And I now recognize Mr. Banks.
    Mr. Banks. Thank you, Chairwoman Comstock, for organizing 
today's hearing, and thanks to each of you for being here as 
well to testify before Congress about the importance of these 
grant programs as we debate the reauthorization of many of 
them, and also thanks for the hard work that you do to serve 
our local communities.
    Despite living in a time where fire prevention technology 
is more advanced than ever, it is unfortunate to hear that 
incidents of fire, property losses to fire and deaths caused by 
fire are increasingly common. This month alone, the Fort Wayne 
Fire Department in my district has already logged roughly 73 
fire-related incidents ranging from passenger vehicle fires, 
cooking or equipment fires, and various smoke scares across 
Allen County, the largest county in the 3rd District of 
Indiana. Many of these incidents happen in the early hours of 
the morning when detection isn't as responsive. For example, 
had firefighters not immediately responded to an automated 
alarm at 2:22 a.m. last week, my district could have lost its 
historic public library in Auburn, Indiana. The quick 
cooperation of citizens, fire detection technologies, and law 
enforcement in the aftermath of this incident confined damage 
mainly to the first floor rather than the entire structure.
    Awareness of fire prevention practices and FIRE grant 
program funding protects and benefits just about every Hoosier 
in my district in some way, shape or form. Reauthorizing these 
programs is crucial to keeping both people and property safe 
back home in Indiana, so I look forward to learning more about 
what priorities to consider moving forward from each of you.
    My first question is to Chief Browning. I received a letter 
last week from your colleague in my home state, Indiana Fire 
Marshal Jim Greeson. He expressed his support for your proposal 
to increase the funding allocation for fire prevention and 
safety and the FIRE Act grants program. He cites, for example, 
that with one of these grants in the State of Indiana, he was 
able to purchase 1,200 smoke alarms for the deaf and hard of 
hearing. This seems like a worthwhile effort, but do states 
share the results of research and programs with other states to 
assure best practices and the effective use of funding? Is 
there a process to check if such efforts are successful in 
meeting the program goals of reducing fire deaths and injuries?
    Chief Browning. Yes, sir, and thank you for that question. 
He's absolutely correct, and I think the role of the state fire 
marshals are to partner with their local fire service and 
responders to provide programs just as that. We know early 
detection, as you stated, is one of the fundamental methods of 
getting people out of a building and provide free and clear and 
quick egress while firefighters are responding to suppress that 
fire. So programs such as early detection, such as education, 
such as research are exactly what the Fire Prevention and 
Safety program does, and you'll see many successes across the 
country that are shared.
    You know, I could remember when the 9-volt battery smoke 
alarm first came out on the market. I was actually pretty young 
then, even though they've been out a long time. I can remember 
when they came out on the market, and people didn't want them. 
They were scared. I remember testifying before the Louisiana 
legislature in 1991 to make that a requirement at the sale of 
homes because we knew people were dying before firefighters 
could get there, and it was the hardest thing in the world to 
pass. Today if you don't have a smoke alarm in your home, you 
understand that that's just as important as all of other 
necessities in your home, and what you're seeing now is the 
upgrade to the ten-year lithium battery sealed alarms because 
now when firefighters go in the homes and install these alarms, 
they know there's ten years of protection, not 9 months or 12 
months of a 9-volt battery.
    Mr. Banks. Very good.
    As a follow-up to Dr. Horn, you specifically state in your 
testimony that one of the most encouraging trends in the FP&S 
R&D programs is the high degree of collaboration among 
researchers investigating health and safety concerns among 
firefighters. Can you elaborate on how this collaboration takes 
place and particularly how knowledge and research is shared on 
the state and local level?
    Dr. Horn. Thank you very much for that question. This is a 
multidisciplinary, basically a transdisciplinary research 
program that has developed as a result of the nearly ten years 
of funding through the Fire Prevention and Safety R&D programs. 
The studies such as the video that was just displayed earlier 
have gone from a single topic to really trying to understand 
the fire service response in holistic perspective, 
understanding the changes in protection from one aspect such as 
increasing protection from the carcinogens, the chemicals on 
the fire ground can have impacts on other aspects such as 
increased heat stress and cardiovascular strain on the fire 
ground.
    So the studies such as the one you saw there includes 
individuals who have expertise in all of those areas where we 
have cardiovascular research experts from New York, from UIC as 
well as from Illinois, industrial hygienists who focus on 
chemical exposures from NIOSH as well as Underwriter Labs, who 
has studied the fire ground environment in the most complete 
manner possible. So this transdisciplinary group is necessary 
to be able to look at this from a higher level to be able to 
understand the tradeoffs in protection from one aspect to the 
other and how we can minimize or optimize that tradeoff there, 
and that has been an outgrowth, a direct outgrowth of this R&D 
program which has brought firefighter-related research together 
in this one area.
    Mr. Banks. Thank you.
    Yield back.
    Mr. Abraham. [Presiding] Thank you. Ms. Esty, five minutes.
    Ms. Esty. Thank you very much. I want to thank our Chairman 
and Ranking Member for this very important hearing we're having 
today, and I really want to thank the six of you for your 
service and what you represent for firefighters across the 
country. Chief Sinclair, as you noted, I've worked very closely 
with the firefighters in Connecticut where we have 80 percent 
of our departments are staffed by volunteers. Eighty percent of 
all our firefighters are volunteers. I have a lot of small, 
rural communities, and they absolutely depend on these 
programs. They're completely vital. A town of 4,000 or 3,000 
people can't possible afford to provide the protection for, as 
you say, Captain Niemiec, and several of you have mentioned, 
somebody got up in the middle of the night and puts their life 
on the line to save their neighbor, and we can't thank them 
enough. So first, thank you for all you do.
    I wanted to highlight again what Chief Sinclair noted about 
the utter importance of supporting through these grants 
volunteer recruitment and retainment. In Connecticut, we figure 
that saved us $18 million. One of my best staffers left me 
because his lifelong dream was to become a firefighter. But in 
Connecticut, he has to pay $1,000 for the training to even take 
the test. That's gone up substantially. So to even have the 
opportunity to take the test, young men and young women are 
having to pony up themselves, and that's just wrong, and these 
grants are vital to keeping our communities safe.
    I wanted to turn a moment, Dr. Horn, to something that you 
talked about, this being the Science Committee, and about the 
research, but I think a lot of times we think about fancy new 
equipment and certainly the materials technology and some of 
that research is actually being done, and my district in Avon, 
Connecticut, provides some of the best reflective material 
that's used to keep firefighters safe around the country. But 
the importance of practices and techniques of training, again, 
because so many of our firefighters are volunteers, can you 
talk a little bit more about the importance of that training 
that otherwise isn't getting done? And then what, if anything, 
we can do to disseminate that information because, again, the 
best research in the world if it stays in the can or is in a 
manual that nobody looks at is not going to save the lives that 
we need to save so that they can go out and continue to save 
those of others. Again, thanks very much.
    Dr. Horn. Yeah, absolutely. It's a great question, and an 
area that a specific focus of this research and development 
program is getting information out to the fire service. But let 
me take a couple steps back and actually discuss something that 
was brought up by Chief Sinclair, and that is the practices. An 
avenue that we have really started to look at is understanding 
tactics, how the actions that we take on the fire ground can 
change the risk profile for the occupants of the structure as 
well as the victim, and some of these things are very tightly 
held tactics that have gone through many years, have worked 
successfully for those departments. So we need to understand 
the impact of changing a tactic but the impact of changing a 
tactic in my department will be very different than in Fairfax 
County. So we need to provide information on what can be done 
and how that broadly translates across the country because it 
has to be implemented locally. A department that has two 
members run it is very different than a department that has six 
members and five more apparatus coming behind. So we're trying 
to provide information that can be broadly translated but also 
is widely available as well as generalizable to the different 
realities and the local jurisdictions.
    One of the great ways of being able to do that is through 
the internet. A lot of online programming is freely available 
as a result of this project, the project you saw on the video. 
We are right now working on a toolkit that should be available 
by the end of the year free for any department to get online to 
have access to that information, what does it mean, the 
tactical considerations, the policy considerations, but then 
access all the way down to the actual scientific academic peer-
reviewed data if they're interested in that. Most fire 
departments probably care about the how. So those tactics can 
have an impact.
    We often rely on our personal protective equipment and some 
tools to provide protection for us but in many ways we look at 
it from a hierarchy control. That should be one of the last 
levels that we're focusing on. If we can avoid that, that's 
what we're looking at. There are, though--to answer Chairwoman 
Comstock's question, there are technologies being funded by 
Fire Prevention and Safety to look at things such as 
particulate measurements on the fire ground because the tools 
that we have right now don't do a good enough job to tell us 
when it is safe to take off our SCBA, for instance. So it's 
coming, it's broad-based, and it's focused because of this type 
of program.
    Ms. Esty. Again, I see my time is running out, but I want 
to say again how important this is because, again, especially 
our rural communities but frankly our cash-strapped cities like 
mine in Waterbury--I reached out to my fire departments over 
the last couple of days, and every single of them said they 
absolutely depend on these grants. They could not possibly 
staff their departments or provide the protective equipment 
that they need without this, especially when we see a lot of 
constrained state and local budgets. So having those resources 
at the federal level available to Americans across the country 
is incredibly important, and again, I want to thank the six of 
you for your service, please thank your departments, and I 
appreciate your helping in making--helping us make that case to 
our colleagues so we get this reauthorized at a higher 
appropriate level back to the levels it should have been at to 
help keep Americans safe. Thanks, all, very much.
    Mr. Abraham. Dr. Marshall, five minutes.
    Mr. Marshall. Thank you, Chairman.
    Mr. Hirsch, a couple questions. What are the most critical 
needs that we face in northwest Kansas for your fire 
departments? What are your most critical needs?
    Mr. Hirsch. Congressman, clearly the awareness, the safety 
culture that has changed in the fire service from 1963 when my 
father started in the volunteer fire service to 1987 when I 
started, 2017 has changed dramatically, and a lot of that has 
come because of the research projects that have been done. But 
I think we can never forget the fact that there are basic needs 
that are still not being met in rural fire departments out in 
our state. There are still departments that are borrowing gear 
from other departments. A department will replace their gear 
and transfer it to another department, gear that probably 
should be out of service but it's better than what they had. 
Departments that have 50- or 60-year-old trucks, departments 
that have 40-year-old hose, departments that don't have SCBAs 
to be able to do an aggressive interior fire attack to save 
lives. There are a lot of basic needs out there that still have 
not been met. There are departments in Kansas that still have 
dirt floors in their fire station. It's just a fact of life, 
and they are small departments. They don't have a very large 
tax base. These programs are just invaluable, and they're 
invaluable to saving volunteer firefighters' lives.
    Mr. Marshall. How would the USFA or the Fire Safety grant 
programs help with those types of needs?
    Mr. Hirsch. Well, clearly, at least in the northwest part 
of the state where I live, there are countless departments that 
have gotten grants to pay for that type of equipment, but I 
will tell you that over the past 10 to 15 years, the amount of 
money that's been appropriated into these programs has declined 
markedly, and so we're--a lot of departments in Kansas were 
getting grants 15 years ago. There aren't very many today 
because the competition is so stiff and the funding is so 
small.
    Mr. Marshall. Let's kind of follow up on the grant process. 
I assume that you're the person that writes these grants?
    Mr. Hirsch. In my department, yes, and for a lot of my 
neighbors too.
    Mr. Marshall. How is that process going, or what challenges 
do you have in the grant process writing?
    Mr. Hirsch. Writing the grants are not difficult. I've also 
been on the other side and reviewed grants with the fire 
administration. It's made up of a peer process where 
firefighters actually get a chance to review grant applications 
from other departments. That also helps you write your own 
grants when it comes around too. But I'll tell you that a lot 
of these volunteer fire chiefs, they've got lives, they have 
jobs, and that becomes very difficult for them to commit the 
amount of time. The grant process, the application process, is 
not that difficult but it does take some time. It takes a 
commitment of time. They're already committing a lot of time 
and, frankly, committing a lot of their money to protecting 
their communities, and it's difficult. It's difficult, and 
especially I think with the decrease in the funding over time, 
after you've applied for a grant a time or two or three and 
you're not awarded anything, then you get discouraged and you 
give up.
    Mr. Marshall. I think my next question's for Dr. Onieal. 
What is the USFA doing in specialized training specifically, 
for rural voluntary fire departments?
    Dr. Onieal. The specific training that we provide to rural 
departments, believe it or not, occurs at every state. So if we 
talk about your state, Kansas, the state fire training system 
there and the state director delivers National Fire Academy 
training throughout the state. I was out there last year. I 
spoke at a statewide conference, and they're just simply doing 
a terrific job. The advantage to those firefighters is that 
when they do that, they're registered in the National Fire 
Academy database, which means that their credential is carried 
wherever they go. If they move to a different department or 
even a different state, that credential carries with them.
    All the National Fire Academy courses are reviewed by the 
American Council on Education for college credit 
recommendation. They can transfer some of that credit into 
their college degree programs, and all of them also--well, the 
online courses that they're available--are reviewed by the 
International Association for Continuing Education and Training 
and they receive CEUs. So through the state training system and 
classroom training and through the National Fire Academy's 
online----
    Mr. Marshall. What's unique, though, for the rural 
training? What is more specifically the process?
    Dr. Onieal. Okay. I'm going to ask to get back to you, and 
I'll give you a full list of the courses that we have available 
to you for the rural fire service.
    Mr. Marshall. Mr. Hirsch, maybe you can answer what's more 
specific towards rural training?
    Mr. Hirsch. Frankly, I don't know that there's a whole lot 
of difference between rural and urban firefighting. We don't 
have--we have high rises; they're grain elevators. But we're 
still fighting house fires. We're still trying to extricate 
people from wrecks. We're still handling EMS calls and hazmat 
calls. The training is similar across the lines whether you're 
rural, suburban or metro.
    Mr. Marshall. Okay. I yield back. Thank you.
    Mr. Abraham. Thank you, Dr. Marshall.
    Ms. Bonamici, five minutes.
    Ms. Bonamici. Thank you very much, Mr. Chairman and Ranking 
Member, for holding this important hearing, and thank you to 
each and every one of you for being here today and for the 
important work you do.
    Like so many of my colleagues, I have been and continue to 
be a strong supporter of the FIRE and SAFER grant programs, and 
I know that numerous fire departments in the district I 
represent in Oregon, particularly the volunteer departments, 
rely on those funds to fulfill critical needs.
    The district I represent, Chief Sinclair might be familiar 
with it, is bordered by miles and miles and miles of the mighty 
Columbia River, and on Monday, just this past Monday, I had the 
opportunity to meet with the Maritime Fire and Safety 
Association, which is a wonderful collaborative organization 
with our neighbors to the north on the other side of the river. 
It was formed after the tragic death of a Coast Guard man and 
the critical injury of a firefighter after an inability to 
coordinate response to vessel fire on the Columbia River, and 
it is a fabulous collaboration, and it includes more than a 
dozen municipal fire agencies along the Willamette and Columbia 
Rivers, and many of those agencies have benefited from FIRE and 
SAFER grants. So it is a unique organization and it is a 
serious issue that they need to be prepared for. There's a lot 
of vessel traffic in the river.
    So I wanted to quote Bob Livingston. He's the President of 
the Oregon State Firefighters Council, and he described these 
grants, the FIRE and SAFER grants, as some of the best federal 
programs and they yield a great deal of success, and this is 
what he says. He said ``The reason for this is twofold. First, 
whether it is vital equipment that may save a life in the event 
of a cardiac arrest or having adequate staffing to handle the 
wide range of emergency response, these dollars are getting to 
the local level. Second, these dollars are allocated to local 
communities based on scientific-based information that allows 
Congressional members to come together in a bipartisan fashion 
to fund these important programs that make communities across 
this nation safer.'' So I know he appreciates the grants, and I 
have too.
    Mr. Hirsh, I wanted to ask you, the SAFER program has 
helped career departments hire new and additional personnel to 
meet staffing safety standards and it requires a percentage of 
funding to go to volunteer departments for recruitment and 
retention of volunteer firefighters. So in your written 
testimony, you describe a recruitment program in Stayton, 
Oregon, which is not quite in my district, but they've had a 
lot of success in bringing on career and volunteer 
firefighters. So could you elaborate on the program and the 
extent to which the best practices that are developed are 
scalable and repeatable for other volunteer fire departments?
    Mr. Hirsch. Yes. I think they are scalable and repeatable. 
In the particular one that you're talking about in Stayton, 
they not only recruited people for their own fire department, 
but as a result of the work that they did there, they recruited 
firefighters for neighboring fire departments as well. I 
believe there were some 80 firefighters in their district and I 
think around 30 in neighboring districts.
    The National Volunteer Fire Council currently has a program 
as a result of a grant through this program called Make Me a 
Firefighter. If you want to look at it, makemeafirefighter.org 
is the website. What that does it, it sets up a portal for 
local fire departments to create their own resource there so 
that if someone wants to volunteer for their department, 
there's a particular portal for that department that a person 
can sign up and see whether or not they need volunteers in that 
particular area, and----
    Ms. Bonamici. Wonderful. Thank you.
    And I want to get another question in. I know one of the 
proposals that's under consideration is to allow that the SAFER 
grant funds be used to augment the pay of part-time or paid on-
call firefighters to make them full-time personnel, and I 
wonder if any of our witnesses could explain, do you support 
this? Do you share concerns that there might be about that 
change? Anybody want to weigh in on that proposal? I see Chief 
Sinclair's interested.
    Chief Sinclair. Thank you very much for the question. Many 
fire departments, mine as an example, are combination fire 
departments. We have reserves resident. The reserves are paid 
on-call firefighters. We have career folks and we have 
community volunteers. Many of our hires come from either our 
resident pool or our reserve firefighters, which are paid on-
call firefighters. They are folks that are committed to the 
community, that are well known to the community. They're well 
known to us because we know their work ethic. And so having 
that pool of people that you can hire from is very appropriate. 
The conundrum in the current language is that because they're 
already a part-time employee, you can't hire them, even though 
they're probably one of your most trusted resources and would 
make a very good transition to a career position, and so that's 
the reason why we're asking for the change is simply to be able 
to take people that are committed inside of that community, 
have already proven themselves to the organization, and the 
ability to transition. Many people that are in the career force 
came out of the volunteer or part-time ranks.
    Ms. Bonamici. Thank you. That's valuable input. And I see 
that my time is expired.
    Thank you, Mr. Chairman.
    Mr. Abraham. Thank you for being here, gentlemen. It's my 
time for some questioning. We appreciate your time away from 
your constituents. You are not only part of local security, 
fire security, but with global terror, now you're part of 
national security, and we understand the risks that you incur 
every time you enter a building of unknown substance.
    Chief Browning, thanks for being the Fire Marshal for my 
great State of Louisiana. You do an exemplary job, so kudos. 
You deserve it.
    And my first question is to you. The State Fire Marshals 
are responsible and required to collect the fire data in their 
state for the U.S. Fire Administration. How does this affect my 
State of Louisiana's resources, and do you consider that an 
unfunded mandate?
    Chief Browning. Yes, sir. First off, I'm going to tell you 
data collection is the most important thing. That's how we 
learn the testimony we give you today not only in the 
prevention area, the need for equipment and the need to hire 
additional personnel. It's that data that drives that, and that 
data starts at the local fire department. It comes to the State 
Fire Marshals. We collect that data, we scrub that data, and we 
report that to the U.S. Fire Administration. We receive no 
funds from the U.S. Fire Administration for doing that. It's a 
burden that my state budget and I suspect other State Fire 
Marshals' state budgets have to incur.
    Mr. Abraham. Some of the fire service groups feel that any 
changes to the FIRE grant authorization will have an effect on 
eliminating the sunset provision to take effect on January 
2018. What is the State Fire Marshals' position on this?
    Chief Browning. Well, first off, we need to eliminate the 
sunset. It's not my opinion that proper changes and right 
changes, smart changes, certainly changes that bring about 
prevention, changes that bring about better expenditure of that 
equipment grant, and better changes that allow us to hire and 
retain firefighters shouldn't affect that sunset.
    Mr. Abraham. And you've alluded to this question, but I'm 
going to ask it a little bit of a different way. You said in 
your testimony--I read it--that the most cost-effective way to 
protect the greatest number of individuals and property is to 
allocate additional funding for fire prevention and safety 
programs. How would additional funding for State Fire Marshal 
fire prevention and safety programs benefit fire departments in 
Louisiana, other states who do not provide fire prevention or 
have the resources to adequately enact fire prevention 
programs?
    Chief Browning. Well, I believe that allocating money to 
state programs puts a footprint in every community. So in our 
State of Louisiana, anything that the State Fire Marshal does, 
our state fire training center does, when they do that, it 
affects every fire department in our state, even the most rural 
that can't afford those resources, and even the largest and 
most progressive departments who we supplement the things that 
they do. So I think whether it's a smoke alarm campaign, 
whether it's a firefighter safety campaign, whether it's a 
training campaign, the state does do a good job of touching 
people who otherwise may be left out.
    Mr. Abraham. Mr. LaHood, five minutes for you, sir.
    Mr. LaHood. Thank you, Mr. Chairman, and let me thank the 
witnesses for being here today, and thanks for your service to 
the communities that you serve throughout the country. I 
appreciate it very much, and for your valuable testimony here 
today.
    I want to add my support for the AFG grant program and the 
SAFER grant program. I've seen it throughout my district. I 
have a fairly rural district in central and west central 
Illinois, 19 counties that cover from Quincy, Illinois, to 
Jacksonville, Illinois, to Peoria and all places in between, 
and whether it's safety equipment, whether it's personnel, it 
has been a valuable program and has helped to protect the 
safety of the constituents there and also to help the many 
departments that are in my district. So we need to continue to 
support those programs.
    Dr. Horn, thank you for being here today, and the work that 
gets done at the Illinois Fire Service Institute is very 
important, and I've seen it. In my State of Illinois, I served 
in the state legislature there and worked an awful lot with our 
local fire departments there, and the work that goes on there, 
you know, cross-cutting research, cardiovascular research, heat 
stress research, fire ground chemical exposure research, and 
the benefits that come about from that are applicable whether 
it's rural or urban throughout the State of Illinois, and I 
think it's really kind of a poster child for other areas across 
the country that can be done. What I guess I'm wondering, Dr. 
Horn, and I wanted you to comment on, when we look at the 
federal level and whether there's any applicability of what we 
can do on the federal level based on what's done in Illinois, I 
was wondering if you could comment on that, on your thoughts.
    Dr. Horn. First of all, thanks for the kind words and the 
supportive comments. And so just a quick clarification. Are you 
asking what could be done to replicate some of the work that is 
being done at Illinois Fire Service Institute?
    Well, we're very fortunate at IFSI in that we have the 
state training academy, which IFSI is collocated with the 
University of Illinois, which is one of the leading Research 
Institutions in the country, and we have some very engaged 
individuals, both on the research side as well as on the fire 
service side to try to come together and locate problems. There 
certainly are opportunities to replicate that at other 
locations. For instance, Maryland's state academy is also at 
their state university.
    The important way that we can bring this forward is to make 
sure that we have the leadership that is willing to engage both 
sides and to understand the necessity that the fire service has 
for having this research translate into practice. It can be 
challenging for some academic research institutions depending 
on how they are receiving tenure, promotion, those sorts of 
things to potentially be engaged in some of this hands-on, more 
applied type of research as opposed to some of the more 
traditional funded research in those programs. So because we 
have the collocation of both of those, it allows us to do 
certain things like that where we can touch both the academic 
side and the hands-on side.
    I believe this is when we talk about the centers of 
excellence. Centers of excellence are actually now--we have 
people from across the country, the projects that we wish NIOSH 
and Underwriter Labs and Skidmore College in New York are a 
center that actually involved in multiple different agencies 
that is being replicated. Phoenix--University of Arizona is 
developing a project that includes us as well as NIOSH as well 
as Miami and other places. So the research is becoming, because 
of this R&D program, very transdisciplinary and across the 
country.
    So I believe it's starting to be replicated in various 
different areas. But the ability to translate it to the fire 
service, if centers for excellence were to be funded, that's 
one of the critical avenues because that is a challenging 
aspect of all of this, someone who can speak engineering or 
medical science and speak firefighter at the same time because 
often those two don't overlap with each other, and that's a 
critical avenue where I think we have some unique ability to 
fill in that gap.
    Mr. LaHood. Great. Thank you, Dr. Horn. Those are all my 
questions.
    Chairwoman Comstock. Thank you. And my apologies to have to 
briefly leave. I have another hearing going on right now, a 
committee I serve on where the FBI building was an issue. So 
we've been wanting to get that in Virginia. I know my Maryland 
colleagues had other ideas. I think we all agreed we didn't 
want it in D.C.
    But thank you all for your time and your expertise. We 
really appreciate all of your testimony and the members for 
their questions. I think as you can see from today's hearing, 
we are all united in our interest in continuing the good work 
that you have on here and that you've done here, and we 
appreciate all you are doing in our respective communities and 
for the country.
    So the record will remain open for two weeks for additional 
written comments and written questions from members, and I'll 
also reiterate, any of the different technology items and 
things that you would like us to--any visuals that we can 
highlight for our colleagues will be very helpful as we go 
forward with our September 30th deadline that we want to make 
sure we continue the good work you are doing.
    So the hearing is now adjourned.
    [Whereupon, at 11:41 a.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                              Appendix II

                              ----------                              


                   Additional Material for the Record



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
